 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


   Independent Review of The U.S. Customs
     and Border Protection’s Reporting of
       FY 2007 Drug Control Obligations




OIG-08-39                    April 2008
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                            April 18, 2008

                                                Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of the review of the Table of Drug Control Obligations and related
disclosures of the U.S. DHS’ Customs and Border Protection (CBP) for the year ended September
30, 2007, for the Office of National Drug Control Policy (ONDCP). We contracted with the
independent public accounting firm KPMG LLP to perform the review. Management of CBP
prepared the Table of Drug Control Obligations and related disclosures to comply with the
requirements of the ONDCP Circular, Drug Control Accounting, dated May 1, 2007. We do not
express an opinion on the Table of Drug Control Obligations and related disclosures.

It is our hope that the information in this report will continue to result in effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                                Richard L. Skinner 

                                                Inspector General 

                         DEPARTMENT OF HOMELAND SECURITY 

                          CUSTOMS AND BORDER PROTECTION

                       Annual Reporting of FY 2007 Drug Control Funds 



DETAILED ACCOUNTING SUBMISSION

A. Table of FY 2007 Drug Control Obligations

                                                  (Dollars in Thousands)

         Drug Resources by Drug Control Function:                                 FY 2007
            Intelligence                                                         $256,392
            Interdiction                                                        $1,308,094
              TOTAL                                                             $1,564,486

         Drug Resources by Budget Decision Unit:
            Salaries and Expenses                                               $1,226,988
            Air & Marine Operations                                               $337,498
              TOTAL                                                             $1,564,486




   1. Drug Methodology

       Customs and Border Protection (CBP) is a multi-mission bureau, and calculates
       obligations, by budget decision unit and function, pursuant to an approved drug
       methodology. On the basis of past practice, five organizations within CBP, the Offices of:
       Border Patrol; Field Operations; Information Technology; Training and Development; and
       Air and Marine were provided with guidance on preparing estimates for the FY 2007
       annual reporting of drug control funds. These offices were asked to estimate, on the
       basis of their expert opinion, what portion of their activities is related to drug enforcement.
       In addition, these organizations were also asked to only provide data for obligations
       against budget authority that became available in FY 2007.

       All five organizations identified resources in their financial plans that support the drug
       enforcement mission of the agency. Each office also attributes resources to both the
       intelligence and interdiction functions.


       OFFICE OF BORDER PATROL

       There are over 14,900 Border Patrol agents that are assigned the mission of detecting
       and apprehending illegal entrants between the ports-of-entry along the over 8,000 miles
       of land and coastal border. These illegal entries include aliens and drug smugglers,
       potential terrorists, wanted criminals, and persons seeking to avoid inspection at the
       designated ports of entry due to their undocumented status, thus preventing their illegal
       entry. It has been determined that 15 percent of the total agent time nationwide is related
       to drug interdiction activities. These activities include staffing 34 permanent border traffic
       checkpoints nationwide including 584 canine units trained in the detection of humans and
       certain illegal drugs that are concealed within cargo containers, truck trailers, passenger
       vehicles and boats. In addition, agents perform line watch functions in targeted border
       areas that are frequent entry points for the smuggling of drugs and people into the United
       States.
OFFICE OF FIELD OPERATIONS

The Office of Cargo Conveyance and Security/Non-Intrusive Inspection Division of the
Office of Field Operations estimates that, as of September 2007, there were 3,941 CBP
Officer positions that are related to drug enforcement called Enforcement Team Officers.
In August 2003, CBP established a Consolidated National Inspectional Anti-Terrorism
Contraband Enforcement Team (A-TCET) Policy. Under A-TCET, the former Contraband
Enforcement Team (CET), Manifest Review Unit (MRU), Non-Intrusive Inspection,
Canine, and Outbound teams were united to form a single enforcement team, A-TCET.
The A-TCET also works closely with the Passenger Enforcement Rover Team (PERT)
and Passenger Analytical Unit (PAU) teams to coordinate all enforcement activities.
Although the primary mission of the A-TCET teams is anti-terrorism, A-TCETs also focus
on all types of contraband, including narcotics. It is estimated that 69 percent of the A-
TCET is devoted to drug enforcement. The smuggling methodologies and their indicators
are believed to be similar for both narcotics and anti-terrorism activities.

As of September 2007, there was a total of 583 Canine Enforcement Officers. Included
in the total were 271 Narcotics Detection Teams, 10 Currency Detection Teams and 185
Narcotics/Concealed Human Detection Teams that were nearly 100 percent devoted to
smuggling interdiction. Also included in the total, but not scored for narcotics
enforcement are 91 Agricultural Teams, and 26 Explosive Detection Teams.

As of September 2007, the Office of Field Operations (OFO) also had oversight for
13,685 other CBP Officers that in addition to the interdiction of contraband and illegal
drugs enforce hundreds of laws and regulations of many other Federal government
agencies. For example, these agencies include the U.S. Fish and Wildlife Service, the
Bureau of Alcohol, Tobacco, Firearms and Explosives, and the Bureau of Export
Administration among many others. CBP subject matter experts estimate that roughly 30
percent of these officers’ time is devoted to drug-related activities.

OFFICE OF INFORMATION TECHNOLOGY

The Office of Information Technology (OIT) supports the drug enforcement mission
through the acquisition, and support and maintenance of technology, such as non-
intrusive inspection systems and mission critical targeting software systems. Of OIT’s
spending, 30 percent of base of the Enforcement Technology Center; 25 percent of
Automated Targeting Systems (Passenger, Narcotics, and Anti-Terrorism) systems
software costs, 50 percent of the Treasury Enforcement Communications System
(TECS); and 10 percent of data center operations costs are estimated in support of the
drug mission.

OFFICE OF TRAINING AND DEVELOPMENT

The Office of Training and Development (OTD) arrived at its estimates by reviewing all
courses conducted to determine if the course contained drug enforcement related
material. If the course was found to contain drug related material, the funding attributed
to the course was then multiplied by the drug content percentage based on the drug
budget methodology. Other resources were attributed to drug enforcement activities at a
rate of 31 percent based on the diverse nature of OTD’s programs such as anti-terrorism,
career development, and transition training of the legacy workforce.

OFFICE OF AIR & MARINE OPERATIONS

CBP Air’s core competencies are air and marine interdiction, air and marine law
enforcement, and air domain security. In this capacity, CBP Air and Marine targets the
conveyances that illegally transport narcotics, arms, and aliens across our borders and in
   the Source, Transit and Arrival Zones. In support of Source and Transit Zone interdiction
   operations, the CBP Air and Marine P-3 Program has dedicated a minimum of 7,200
   hours a year in support of Joint Interagency Task Force – South. Due to serious
   maintenance issues for the past year many of the P-3 aircraft were parked pending
   repairs. A&M was still able to complete 5,400 (75%) hours with only 25% of assets
   available. This added additional flight hours per aircraft, reducing the life-time before a
   SLEP must be accomplished. An extensive SLEP program is currently underway and
                                                           th
   all the P-3 aircraft should be fully functional by the 4 quarter of fiscal year 2008.

   Although 90 percent of the resources that support CBP Air and Marine are considered to
   be drug-related, since September 11, 2001, Air and Marine has steadily increased its
   support to counter-terrorism by developing a more cohesive and integrated response to
   national security needs as well as more emphasis on illegal immigration. Currently, Air
   and Marine is dedicating significant assets and personnel in support of Operation
   HALCON – a US/Mexico interdiction initiative, and support to the Office of Border Patrol
   in Southwest Border illegal alien intervention.

2. Methodology Modifications

   There were no methodology modifications since last year. As mentioned above the
   percentages are, in large part, based on expert opinion.

   Last year’s Office of Information and Technology submission used 50% of base of the
   Enforcement Technology Center, 100% of ATS-Narcotics systems software costs, 50%
   of the Treasury Enforcement Communications System (TECS) and ATS-Passenger
   Costs and 10% of data center operations costs as being dedicated to drug enforcement.
   In this submission, these percentages are 30% of base of the Enforcement Technology
   Center, 25% of Automated Targeting Systems (Passenger, Narcotics and Anti-Terrorism)
   systems software costs, 50% of the Treasury Enforcement Communications System
   (TECS) and ATS-Passenger Costs and 10% of data center operations costs. If last
   year’s percentages had been used, Customs obligation estimate would have increased
   by $50 million.

   In FY 2007, OFO’s subject matter experts (SME) changed the percent of drug resources
   attributable to positions dedicated to its Enforcement Team Officers from 85% in
   FY 2006, to 69% in FY 2007. Enforcement Team Officers are CBPOs who are part of
   Anti-terrorism Contraband Enforcement Teams (A-TCETs), which include the former
   Contraband Enforcement Teams (CETs), Manifest Review Units (MRUs), Passenger
   Enforcement Rover Teams (PERTs) and Passenger Analytical Units (PAUs).

   The change to 69% for CBP Officer’s working on Enforcement Teams has resulted in a
   decrease of $78.6 million from the old methodology that used 85%. This total reduction
   includes an impact on the base ($49.6 M) as well as the initiatives ($29.0 M). The impact
   on the initiatives is due to the diminished weighting (i.e., 69% versus 85%) applied to the
   congressional initiative that appropriated $181.8 million in FY 2007 for the purchase,
   deployment and operations for non-intrusive inspectional (NII) systems, including the
   personnel needed to operate the NII systems.

   Overall, these changes decrease the CBP obligation estimates in this submission by
   $128.6 million. We believe that this estimate fairly characterizes our efforts and provides
   a better estimate.


3. Material Weakness or Other Findings
       Core Financial Systems: This material weakness was first reported in 1993 when it was
       noted that agency core financial systems were not integrated and did not provide certain
       financial information for managing operations. The implementation of Systems,
       Applications, and Products (SAP) addressed a number of the issues under this
       weakness.

       Financial Systems Security: In the Fiscal Year 2005 DHS Financial Statements Audit
       Report, auditors expanded this DHS material weakness to include IT and financial
       system control weaknesses in addition to weaknesses in CBP security controls affecting
       headquarters and the National Data Center management and staff’s system access to
       CBP applications and data (formerly Financial Systems Functionality and Technology).


   4. Reprogramming or Transfers

       There are no reprogrammings or transfers that affected drug-related budgetary
       resources.


   5. Other Disclosures

       There are no other disclosures as we feel are necessary to clarify any issues regarding
       the data reported under this circular.


B. Assertions

   1. Drug Methodology

       CBP asserts that the methodology used to estimate drug enforcement related obligations
       and FTE utilization is reasonable and accurate. The criteria associated with this
       assertion are as follows:

       a. Data

            The estimate of drug enforcement related costs is based on the methodology
            described in section A.1 above, and presents a fair and accurate picture of the CBP
            drug enforcement mission.

       b. Other Estimate Methods

            There are no other estimation methods that are used as part of the drug
            methodology.

       c.   Financial Systems

            CBP’s financial systems (SAP) are capable of providing data that fairly present, in all
            material respects, aggregate obligations. The drug methodology described in section
            A.1 above is used to estimate what portion of these obligations may reasonably be
            considered to be associated with drug enforcement related activities.

   2. Application of Methodology

       The methodology described in sections A.1 and B.1 above was used to prepare the
       estimates contained in this report.
3. Reprogramming or Transfers

   No changes were made to CBP’s Financial Plan that required ONDCP approval per the
   ONDCP Circular dated May 1, 2007.

4. Fund Control Notices

   The data presented are associated with obligations against the financial plan that fully
   complied with the Fund Control Notice issued by the Director of The Office of National
   Drug Control Policy on September 21, 2006. The Director for ONDCP lifted the Notice on
   December 6, 2006.
Report Distribution



      Department of Homeland Security
      Secretary 

      Deputy Secretary 

      Chief of Staff 

      Deputy Chief of Staff 

      General Counsel 

      Executive Secretary 

      Director, GAO/OIG Audit Liaison 

      Assistant Secretary for Policy 

      Assistant Secretary for Legislative Affairs 

      Assistance Secretary for Public Affairs 

      Under Secretary for Management 

      Chief Financial Officer 


      Office of National Drug and Control Policy
      Associate Director for Planning and Budget

      U.S. Customs and Border Protection
      Commissioner          

      Chief Financial Officer

      CBP Audit Liaison        


      Office of Management and Budget
      Chief, Homeland Security Branch 

      DHS OIG Budget Examiner 


      Congress
      Congressional Oversight and Appropriations Committees, as appropriate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
